Audit Report



Return
    to the USDOJ/OIG Home Page



Immigration and Naturalization Service
Intergovernmental Service Agreement
For Detention Services With
The Jefferson County Detention Center
Waurika, Oklahoma
GR-80-01-011
April 26, 2001
Office of the Inspector General

TABLE OF CONTENTS
INTRODUCTION

Background

FINDINGS AND RECOMMENDATIONS

Jail Day Rates
Analysis of Incurred Costs	
Notes
Recommendation
Auditee Comments

APPENDIX I - OBJECTIVES, SCOPE AND METHODOLOGY